                                   UNITED STATES DEPARTMENT OF EDUCATION
                                          OFFICE OF INSPECTOR GENERAL

                                                                                                                 Audit Services
                                                                                                         New York Audit Region

                                                       September 27, 2007

                                                                                                                Control Number
                                                                                                              ED-OIG/A02H0005
Miriam Benítez, President
Educational Technical College
Bayamón Shopping Center, Suite 12
Bayamón, PR 00959

Dear President Benítez:

This Final Audit Report, entitled Educational Technical College’s (EDUTEC’s) Administration
of the Federal Pell Grant Program, presents the results of our audit. The objective of the audit
was to determine whether EDUTEC administered the Federal Pell Grant Program in accordance
with the Higher Education Act of 1965, as amended (HEA), and applicable Federal regulations.
Specifically, we evaluated compliance with regulations governing (1) institutional and program
eligibility, (2) student eligibility, (3) award calculations and disbursements, and (4) return of
grant funds. Our review covered the period from July 1, 2005, through June 30, 2006 (award
year 2005-2006).




                                                      BACKGROUND 



EDUTEC is a private, for-profit institution that provides vocational and technical educational
services at a less than two-year level. The institution has three locations throughout Puerto Rico:
Bayamón (the main location), Coamo, and San Sebastián. The San Sebastián location has a
satellite location in Lares. The total population for the three locations as of June 2007 was about
1,456 students.

EDUTEC offers certificates in the following fields:

    •     Business, Management, Marketing, & Related Support Services;
    •     Family and Consumer Sciences/Human Sciences; and
    •     Health Professions and Related Clinical Sciences.

EDUTEC is accredited by the Accrediting Commission of Career Schools and Colleges of
Technology. The institution offers Pell Grants, Federal Supplemental Educational Opportunity
Grants, and Federal Work Study to eligible students. EDUTEC received approximately $4.8
million in Pell Grant funds during the 2005-2006 award year.


 The Department of Education’s mission is to promote student achievement and preparation for global competitiveness by fostering educational
                                                   excellence and ensuring equal access.
Final Report
ED-OIG/A02H0005                                                                                               Page 2 of 9



                                               AUDIT RESULTS 



We concluded that EDUTEC met Federal requirements governing institutional, program, and
student eligibility and that EDUTEC met Federal requirements for Pell award calculations and
disbursements. However, EDUTEC did not consistently comply with Federal requirements
governing the return of Pell Grant funds.

In its comments to the draft report, EDUTEC concurred with our finding and recommendations,
but did not agree that all 14 students we cite as exceptions in our sample were students for whom
EDUTEC did not comply with return of Title IV fund requirements. EDUTEC stated that only 8
of the 14 returns of unearned Pell Grant funds were not in compliance. The comments are
summarized at the end of the finding and are included as an attachment to the report. Because
the exhibits EDUTEC included with its comments were voluminous, we have not included them
in the attachment (copies of EDUTEC’s entire response are available on request).

FINDING – EDUTEC Failed to Return Unearned Pell Grant Funds for Withdrawn
          Students.

We reviewed the records for 37 randomly selected students from the universe of 296 students
who withdrew from EDUTEC during the 2005-2006 award year. The universe of 296 students
received approximately $637,364 in Pell Grant funds. We found that for 14 of the 37 sampled
students (38 percent), EDUTEC did not return unearned Pell Grant funds to the U.S. Department
of Education (Department). This happened because EDUTEC incorrectly determined the
students’ withdrawal dates to be the last day of their payment periods. The withdrawal date for
these students should have been the mid-point of their payment periods.

Based on the sample results, we are 90 percent confident that the error rate for refunds for the
July 1, 2005, through June 30, 2006 award period is at least 28 percent. 1 Projecting the sample
results to the universe of 296 students resulted in an estimate of about $83,000 for the amount
that EDUTEC failed to return to the Department. We also found that EDUTEC incorrectly
returned $650 in Pell Grant funds for 1 of the 37 sampled students for a payment period that the
student had completed.

EDUTEC is not required to take attendance. According to 34 C.F.R. § 668.22(c)(1)(iii) 2 —

         . . . for a student who ceases attendance at an institution that is not required to take
         attendance, the student’s withdrawal date is . . . [i]f the student ceases attendance
         without providing official notification to the institution of his or her withdrawal in
         accordance with paragraph (c)(1)(i) or (c)(1)(ii) of this section, the mid-point of
         the payment period (or period of enrollment, if applicable) . . . .


1
  The error rate of at least 28 percent is a statistical projection for the universe of 296 students identified as students 

who received Pell Grant funds and withdrew from the institution during our audit period, based on the sample 

results. 

2
  C.F.R. citations in this report are from the July 1, 2005, edition.

Final Report
ED-OIG/A02H0005                                                                          Page 3 of 9

According to 34 C.F.R. § 668.22(c)(3)(i)—

       Notwithstanding paragraphs (c)(1) and (2) of this section, an institution that is not
       required to take attendance may use as the student’s withdrawal date a student’s
       last date of attendance at an academically-related activity provided that the
       institution documents that the activity is academically related and documents the
       student’s attendance at the activity.

EDUTEC’s Retention Committee (Committee) identified students who were at risk of
withdrawing (high-risk students), and tried to find ways to retain them. The high-risk students
were identified through referrals from teachers, who notified the Committee that a student had
not attended classes for two or three consecutive days. The Committee met about once a week
and discussed the cases on an individual basis. In an effort to retain a high-risk student, a
member of the Committee contacted and visited the student throughout the semester, and tried to
get the student to return to the school. At the end of the semester, if the student had not returned,
the Student Counselor either visited the student and provided him or her with a withdrawal form
to sign, or asked the student to go to the institution to sign a withdrawal form. The Registrar
then processed the withdrawal as an official withdrawal on the last day of the semester.

The Committee’s activities allow EDUTEC to determine promptly and accurately that a student
has stopped attending without providing official notification to the institution. Without
documenting the student’s subsequent attendance at an academic-related activity, EDUTEC
cannot use a date later than the payment period’s midpoint as the student’s withdrawal date when
calculating the amount of Title IV funds that the student earned. By using a date later than the
midpoint, EDUTEC’s returns of Title IV funds were less than the required amounts.

The errors in the return of Pell Grant funds occurred because EDUTEC did not have adequate
internal controls to ensure that unearned Title IV funds were returned to the Department for
students who withdrew from the institution. EDUTEC’s written policies and procedures for
determining a student’s withdrawal date were not consistent with Federal regulations, and the
members of the Committee were not properly trained on the Federal requirements for the
treatment of Title IV funds when a student withdraws. We interviewed the Registrars of the
three EDUTEC locations, and two of them stated that they did not have the guidelines prescribed
in the Department’s Federal Student Aid Handbook.

Under 34 C.F.R. § 668.173(d), an institution must submit an irrevocable letter of credit when an
audit conducted by the Office of Inspector General finds that an institution did not return
unearned Title IV funds within the required timeframe for 5 percent or more of sampled students.
EDUTEC did not return unearned Pell Grant funds for 38 percent (14 of 37) students in our
sample. The amount of the required letter of credit is 25 percent of the total amount of unearned
Title IV funds that the institution was required to return during the institution’s most recently
completed fiscal year.

Failing to return unearned Title IV funds for students who withdraw could affect the institution’s
ability to administer Title IV programs. We are concerned that EDUTEC might have also failed
to return Title IV funds for award years outside our audit period.
Final Report
ED-OIG/A02H0005                                                                         Page 4 of 9

Recommendations

We recommend that the Chief Operating Officer for FSA require EDUTEC to—

1.1 	   Develop and implement written policies and procedures that provide adequate internal
        controls to ensure that its calculation of the amount of Title IV assistance earned by a
        student who withdraws is consistent with requirements in 34 C.F.R. § 668.22;

1.2 	   Provide training to its personnel on the Federal requirements for the treatment of Title IV
        funds when a student withdraws;

1.3 	   Review its records for all students who withdrew during the 2003-2004, 2004-2005, and
        2005-2006 award years; using the midpoint as the withdrawal date for unofficial
        withdrawals, recalculate the amounts of Title IV, HEA program funds that the students
        earned; and return the unearned amounts to the Department, deducting $650 in Pell Grant
        funds it incorrectly returned (we estimate about $83,000 in unearned Pell Grant funds for
        the 2005-2006 award year);

1.4 	   Have its independent public accountant, as part of the next scheduled audit, confirm that
        EDUTEC’s performance of Recommendation 1.3 is in compliance with applicable
        requirements in the HEA and regulations; and

1.5 	   Provide an irrevocable letter of credit, as required under 34 C.F.R. § 668.173(d).

EDUTEC Comments

EDUTEC concurred with our finding and related recommendations, but disagreed with the
number of students we identified as exceptions in our sample. In its response to the draft report,
EDUTEC addressed each of the recommendations and described the corrective actions taken.
EDUTEC stated, in response to—

    •	 Recommendation 1.1, that it has reviewed its policies and procedures to ensure that the
       calculation of the amount of Title IV assistance earned by a student who withdraws is
       consistent with regulations.

    •	 Recommendation 1.2, that it has developed a training program to retrain its personnel on
       the Federal requirements for the treatment of Title IV funds when a student withdraws,
       and that it has distributed a copy of the Financial Aid Handbook to its branches, where it
       is available to all of its personnel.

    •	 Recommendation 1.3, that it is in the process of reviewing the records of the students
       who withdrew during the 2003-2004, 2004-2005, and 2005-2006 award years, to
       recalculate the amount of Title IV funds the students earned, and that it plans to return the
       unearned amount to the Department, deducting $650 it incorrectly returned.

    •	 Recommendation 1.4, that it has entered into an agreement with its independent public
       accountant to perform an audit to confirm whether EDUTEC has complied with
       applicable regulations.
Final Report
ED-OIG/A02H0005                                                                         Page 5 of 9

   •	 Recommendation 1.5, it included a blank Letter of Credit with its comments, and stated
      that it was waiting for our instructions to prepare and send the letter.

Although EDUTEC concurred with our finding, it did not agree that all 14 students we cite as
exceptions were students for whom EDUTEC did not comply with return of Title IV fund
requirements. EDUTEC stated that it reviewed the 14 students and found that only 8 of the 14
returns of unearned Pell Grant funds were not in compliance.

OIG Reply

The actions described in EDUTEC’s comments, if properly designed and implemented, should
correct the deficiencies noted in our audit finding. Regarding EDUTEC’s disagreement with our
determinations for 6 of the 14 students, EDUTEC did not provide sufficient documentation in its
response to support its contention that it was not required to return unearned Pell Grant funds for
these 6 students. Therefore, we did not change our finding.



                                    OTHER MATTERS 



Written Notification to Students

According to 34 C.F.R. § 668.165(a)(1), “Before an institution disburses Title IV, HEA program
funds for any award year, the institution must notify a student of the amount of funds that the
student or his or her parent can expect to receive under each Title IV, HEA program, and how
and when those funds will be disbursed.”

We found that EDUTEC notified its students in writing of the amount of funds the student could
expect to receive from the Pell Grant Program, and from other Title IV programs, but the
notification did not include “when and how the funds will be disbursed.” EDUTEC should
include this information in its notifications to students.

EDUTEC stated in its response to the draft report that it amended its award letter to students to
include when and how the funds will be disbursed.



                  OBJECTIVE, SCOPE, AND METHODOLOGY 



Our audit objective was to determine if EDUTEC administered the Federal Pell Grant program in
accordance with the HEA and applicable Federal regulations. Specifically, we evaluated
compliance with regulations governing (1) institutional and program eligibility, (2) student
eligibility (3) award calculations and disbursements, and (4) return of grant funds. Our audit
covered the 2005-2006 award year (July 1, 2005, through June 30, 2006).
Final Report
ED-OIG/A02H0005                                                                      Page 6 of 9

To accomplish our audit objective, we gained an understanding of pertinent Federal regulations.
We reviewed EDUTEC’s compliance audits prepared by its IPA for the fiscal years ended
August 31, 2004, 2005, and 2006. To evaluate internal controls, we reviewed EDUTEC’s
written policies and procedures applicable to its financial aid processes, and gained an
understanding of processes used to administer the Title IV funds. We interviewed EDUTEC’s
Board of Directors. We also interviewed the Executive Director, the Fiscal Officer, the
Academics Director, the Director of Admissions, and a teacher from the Bayamón location; the
Registrars, and Student Counselors from each of EDUTEC’s locations; and eight withdrawn
students.

To evaluate institutional and program eligibility, we examined approvals and correspondence
from the school’s accrediting agency and state oversight agency. We observed classes while in
session and toured the institution’s main location.

To evaluate EDUTEC’s compliance with selected student eligibility requirements, award
calculation requirements, and disbursement requirements, we reviewed academic, financial aid,
and accounting files for a random sample of 30 students who received Pell Grant funds. We
selected the 30 students from a universe of 1,210 students who received Pell Grant funds during
the period July 1, 2005, through June 30, 2006. To identify the student universe, we extracted
data from the Department’s Common Origination and Disbursement database (COD). We did
not use electronic data maintained by EDUTEC.

To test compliance with requirements for the return of Pell Grant funds, we statistically sampled
students who received Pell Grant funds and withdrew from EDUTEC during the period July 1,
2005, through June 30, 2006, to project the results of our work with a 90 percent confidence
level. Specifically, we examined EDUTEC's processes for the return of Pell Grant funds for a
random sample of 37 students using a single step attribute sampling technique. Our sample of 37
students was chosen randomly from a universe of 296 students that EDUTEC identified as
having received Pell Grant funds and withdrawn from the institution during our audit period. We
tested the accuracy and completeness of the computer-processed data that constituted the
universe of 296 withdrawn students identified by EDUTEC, by matching it with the universe of
1,210 students identified from COD as students who received Pell Grant funds during the period.
We reviewed all the students’ records selected for the sample. Finally, we projected the sample
results to the universe of 296 students.

We performed our fieldwork at EDUTEC’s locations in Bayamón, San Sebastian, and Coamo,
Puerto Rico. We conducted the audit in accordance with generally accepted government
auditing standards appropriate to the scope of the audit described above.



                           ADMINISTRATIVE MATTERS



Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report, represent the opinions of the Office of Inspector General.
Determinations of corrective action to be taken will be made by the appropriate Department of
Education officials.
Final Report
ED-OIG/A02H0005                                                                        Page 7 of 9

If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following Education Department
official, who will consider them before taking final Departmental action on this audit:
                      Lawrence A. Warder
                      Acting Chief Operating Officer
                      Federal Student Aid
                      U.S. Department of Education
                      Union Center Plaza, Room 112G1
                      830 First Street, NE
                      Washington, DC 20202
It is the policy of the U. S. Department of Education to expedite the resolution of audits by
initiating timely action on the findings and recommendations contained therein. Therefore,
receipt of your comments within 30 days would be appreciated.

In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office
of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

                                             Sincerely,


                                             /s/
                                             Daniel P. Schultz
                                             Regional Inspector General for Audit

Attachment
                                  Attachment 

                       EDUTEC’s Response to the Draft Report 


  :   I       I -'

                                                                         Bay.m6n Silopping Genie<, Su~e 12
 Educational Technical College                                                    Carre!er•• 167 Esq. Cn 2
                                                                                        6ayam6n. PR 009S9
                                                                    Tel: (787) 780-8234· FIX: (787) 780-8258



August 27, 2007                                                                          Draft Report
                                                                                    ED-OIG/A02 HOOOS



Daniel P. Schultz
Regional Inspector General for Audit
U.S. Department of Education,
Office of Inspector General
Financial Square, 32 Old Slip, 26!h Floor,
New York, NY 10005

Dear Regional Inspector General for Audit Shultz:

We are in receipt oryour leiter and Draft Report for Educational Technical College's (EDUTEe)
Administration of the Federal Pell Grant Program Audit, for the 2005· 2006 award year.

Educational technical College (Edutec) agrees with the auditor's recommendations as stated in
items 1.1 through 1.5 Specifically the school has responded by taking the following actions:

             1.1     Written policies and procedures have been reviewed to provide adequate
                     internal controls to ensure that a calculation of the amount of Title IV
                     assistance earned by a student who withdraws is consistent with req uirements
                     34 CFR § 669.22. The school adopted the procedure as presented in Volume
                     5 of the Student Financial Aid Hand book. Copy of our policy is included en
                     Exhibit I

             1.2     A training program has been developed to retrain our personnel on the
                     Federal requirements for the treatment of Title IV funds when a student
                     withdraws. Retraining has already begun. Evidence is included with this
                     report as Exhibit 2. A copy of the financial aid handbook has already been
                     distributed to every branch and is available for reference to all personnel.
                     This project should be completed by October, 2007. It will continue to be
                     offered every semester to insure continual training and update of new
                     requirements as well as to reinforce past training.

             1.3     We are in the process of reviewing records of all students who withdrew
                     during the 2003·2004, 2004·2005, 2005 to 2006; using the midpoint as the
                     withdrawal date for unofficial withdrawals, in order to recalculate the amount
                     of the Title IV, HEA programs funds that the students earned; and return the
                     unearned amounts to the Department, deducting $650.00 in Pel! Grant funds
                     it incorrectly returned. This will be completed by December 2007 and will
                     be reviewed and confinned during our compliance audit of 2006·2007 by an
                     independent auditor (CPA) due on February 28, 2008.
             1.4 	 The school has entered into agreement for the auditor's review in compliance
                   with applicable requirements in the HEA regulations. Audit will be
                   performed during the compliance audit of 2006-2007. A Copy of this
                   agreement is included as Exhibit 3.

             1.5 	 Required Letter of Credit format is included with this response. See Exhibit.
                   We await your instructions to prepare and send the letter.

             1.6 	 The school amended its award letter to include when and how the funds will be
                   disbursed.

We are sure we were 1irirly audited by a group of professional auditors who have given us the
opportunity to present our evidence of compliance with the program. We congratulate the
Department for their skilled representatives. However there is still some additional work to
report. We have reviewed the fourteen students that were cited in the auditor's report and found
that there are only eight refunds that were not in compliance with the auditor's instructions. We
include our review in accordance to the IG inspector's instructions, See Exhibit 5

If there is anything else we must do or if you have any questions pertaining to our response or
any additional requirement we must complete, please call me at (787) 780-8234 or you may also
contact our Vice President Emilio E Huyke at (787) 382-5050 and we will promptly comply with
your request.

Sincerely.
